No. 20-291
IN THE

Supreme Court of the United States
JAMELL BIRT,
Petitioner,
v.
UNITED STATES,
Respondent.
CERTIFICATE OF SERVICE
I, Zachary C. Schauf, hereby certify that I am a member of the Bar of this Court,
and that I have this 7th day of December 2020, caused a paper copy of the Supplemental
Brief In Support of Petition for a Writ of Certiorari to be delivered to the Court and an
electronic version of the document to be delivered to:
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for United States, et al.

/s/ Zachary C. Schauf
Zachary C. Schauf

